December 14, 2009

ERIC D. CHAVEZ
SENIOR PLANT MANAGER, TAMPA PROCESSING AND
 DISTRIBUTION CENTER

SUBJECT: Audit Report – Powered Industrial Vehicle Management System at the
         Tampa Processing and Distribution Center
         (Report Number NO-AR-10-001)

This report presents the results of our audit of the Powered Industrial Vehicle
Management System (PIVMS)1 at the Tampa, Florida Processing and Distribution
Center (P&DC), located in the Southeast Area (Project Number 09XG034NO000). The
report responds to a request from the vice president, Network Operations to review the
PIVMS. Our objectives were to determine if the PIVMS was functioning as intended
and producing efficiency improvements. This report addresses operational risk. See
Appendix A for additional information about this audit.

Conclusion

Management at the Tampa P&DC used the PIVMS as intended and consequently
realized efficiency improvements. The PIVMS was used as a tool to manage equipment
operator workhours, identify opportunities to reduce vehicle inventory, and ensure
internal controls over safety and security were in place. In addition, using PIVMS,
management reduced vehicle equipment and transferred excess equipment from the
Tampa P&DC to elsewhere in the Southeast Area. Since the Tampa P&DC used the
PIVMS as intended, we are not making any recommendations in this report. Postal
Service management agreed with the findings and chose not to comment on the report
because there were no recommendations. See Appendix B for our detailed analysis of
this topic.




1
 The PIVMS is a wireless system that provides automated measurement, control, and compliance reporting of
operations within a plant, resulting in optimal powered industrial vehicle (PIV) safety conditions, operations,
supervision, and associated savings.
Powered Industrial Vehicle Management System                        NO-AR-10-001
 at the Tampa Processing and Distribution Center



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, director,
Network Processing, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachment

cc:     Patrick R. Donahoe
        Steven J. Forte
        Jordan Small
        Sally K. Haring




                                                   2
Powered Industrial Vehicle Management System                              NO-AR-10-001
 at the Tampa Processing and Distribution Center


                        APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Tampa P&DC is located in the Suncoast District in the Southeast Area. The map
below shows the Southeast Area districts.




The Tampa P&DC processed more than 1.7 billion first handling pieces (FHP) of mail
and used 1.9 million mail processing workhours in FY 2008. The Postal Service leases
the Tampa P&DC building and has occupied this facility since May 1970. The building
contains 400,475 square feet of interior space on a site with dimensions of 557,600
square feet.

The Tampa P&DC implemented the PIVMS on April 17, 2006, at a projected cost of
$252,254. Management justified the purchase based on the following factors:




                                                   3
Powered Industrial Vehicle Management System                                              NO-AR-10-001
 at the Tampa Processing and Distribution Center



      1. Elimination of unauthorized use of powered industrial vehicles (PIVs).

      2. Reduction of injuries caused by unsafe operation of PIVs.

      3. Reduction of damage to mail and equipment caused by unsafe operation of PIVs.

      4. Reduction of workhours used to transport mail and equipment throughout the
         plant.

      5. Reduction of number of pieces of equipment needed to perform this work.

      6. Reduction of workhours needed to maintain the fleet of PIVs.

This implementation was part of a national contract the Postal Service awarded to I.D.
Systems, Inc. (I.D. Systems) of Hackensack, NJ, in January 2005 to produce and
deploy the PIVMS. The Postal Service started the program essentially as a pilot when it
signed a $3.6 million contract with I.D. Systems to implement a wireless asset
management system at 10 bulk mailing2 and distribution facilities across the country.
As of October 2009, the Postal Service placed orders for PIVMS deployment in 114
facilities. The total amount funded for the PIVMS as of October 2009 was more than
$35 million.

The Postal Service intended the PIVMS to provide automated measurement, control,
and compliance reporting of PIV operations within a plant, resulting in optimal PIV
safety conditions, operations, supervision, and associated savings. Some of the major
system design features were:

          Ability to conduct two-way text messaging.

          Assurance of Occupational Safety and Health Administration (OSHA) safety
           compliance by only allowing currently certified operators to log on and operate
           specified equipment.

          Ability to shut down a vehicle after recording a significant impact, increasing
           safety and accountability.

        Ability to measure the amount of time an operator is logged into a vehicle and the
         amount of time the vehicle is in motion.

          Ability to locate, track, and control vehicles within a plant.



2
    Effective August 1, 2009, all BMCs were renamed Network Distribution Centers (NDC).




                                                          4
Powered Industrial Vehicle Management System                                NO-AR-10-001
 at the Tampa Processing and Distribution Center



OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to determine whether the PIVMS was functioning as intended and
producing efficiency improvements. To accomplish these objectives, we observed mail
processing operations and analyzed volume and workhour trends at the Tampa P&DC.
The Tampa P&DC implemented the PIVMS before the end of FY 2006, so we
benchmarked the Tampa P&DC with the 43 sites that had implemented the PIVMS
before the end of FY 2007. We also evaluated the utilization and capacity, staffing
levels, and inventory of powered equipment at the Tampa P&DC.

To conduct this audit, we relied on computer-processed data maintained by Postal
Service Operational Systems, which included Web-based Complement Information
System, and the Enterprise Data Warehouse.

We did not test the validity of controls over these systems. However, we checked the
accuracy of the data by confirming our analysis and results with Postal Service
managers and other data sources.

We conducted this performance audit from August through December 2009 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. We discussed our observations
and conclusions with management on November 13, 2009, and included their
comments where appropriate.




                                                   5
Powered Industrial Vehicle Management System                                       NO-AR-10-001
 at the Tampa Processing and Distribution Center



PRIOR AUDIT COVERAGE

We have conducted five prior audits. The majority of the sites we audited did not
always use the PIVMS as intended and consequently did not fully realize efficiency
improvements. Management agreed with our recommendations.

                                         Report                             Monetary
                Report Title             Number        Final Report Date     Impact
         Powered Industrial
         Vehicle Management
         System at the Raleigh        NO-AR-08-007     September 15, 2008    $3,345,456
         Processing and
         Distribution Center
         Powered Industrial
         Vehicle Management
         System at the                NO-AR-08-010     September 23, 2008    $1,576,086
         Providence Processing
         and Distribution Center
         Powered Industrial
         Vehicle Management
         System at the Louisville     NO-AR-09-001     December 3, 2008      $1,981,643
         Processing and
         Distribution Center
         Powered Industrial
         Vehicle Management
         System at the Oakland        NO-AR-09-007        July 23, 2009     $14,598,866
         Processing and
         Distribution Center
         Powered Industrial
         Vehicle Management
         System at the                NO-AR-09-010     September 22, 2009           $0
         Washington DC Network
         Distribution Center




                                                   6
Powered Industrial Vehicle Management System                                     NO-AR-10-001
 at the Tampa Processing and Distribution Center


                             APPENDIX B: DETAILED ANALYSIS

Volume and Workhour Trends

We reviewed mail volume, workhours, productivity, and complement trends for the
Tampa P&DC from FYs 2006 through 2008 and found that management effectively
managed workhours in relation to workload. For example, from FYs 2006 through
2008, First Handled Piece (FHP) volume at the Tampa P&DC decreased by 5.7 percent
and mail processing workhours decreased by 18.5 percent. Consequently, overall mail
processing productivity increased by 15.6 percent.

Although workhours used in tow and forklift operations at the Tampa P&DC increased
by 5.2 percent from FYs 2006 through 2008, the increase was due to the consolidation
of the St. Petersburg P&DC into the Tampa P&DC. When this consolidation took place
in June 2008, management transferred 23 mail handlers to the Tampa P&DC.
However, overtime in these operations decreased by more than 16 percent from FY
2006 to FY 2008.

The Tampa P&DC also compared favorably with other P&DCs with the PIVMS. We
reviewed volume, workhour, productivity, and complement trends for the P&DCs that
had the PIVMS installed before the end of FY 2007, so there was at least one
completed fiscal year of data. For the 43 sites meeting these criteria, we reviewed
volume, workhour, and productivity trends from FYs 2006 through 2008. During this
period, volume at these sites declined 1.4 percent and mail processing workhours
decreased 11.8 percent. Consequently, productivity increased almost 12 percent. In
FY 2008 these sites used 6.2 percentage of mail processing workhours in tow and
forklift operations, compared with the 4.7 percent used by the Tampa P&DC.

The President’s Commission on the U.S. Postal Service, July 31, 2003, recommends
that the mission of the Postal Service be “. . . . to provide high-quality, essential postal
services to all persons and communities by the most cost-effective and efficient means
possible at affordable and, where appropriate, uniform rates.” Title 39 U.S.C. Part 1,
Chapter 4, § 403, states “The Postal Service shall plan, develop, promote, and provide
adequate and efficient postal services at fair and reasonable rates and fees.”

The Postal Accountability Enhancement Act of December 2006, P.L. 109-435, Title II
dated December 20, 2006, indicates “. . . the need for the Postal Service to increase its
efficiency and reduce its costs, including infrastructure costs, to help maintain high
quality, affordable postal services. . . .”

Use of the PIVMS

The Tampa P&DC used the operational and reporting features of the PIVMS as a tool to
manage equipment operator workhours, identify opportunities to reduce vehicle
inventory, and ensure internal controls over safety and security were in place. The




                                                   7
Powered Industrial Vehicle Management System                                 NO-AR-10-001
 at the Tampa Processing and Distribution Center


Operator Usage Detail Report, Executive Report, and Executive Summary Reports
were distributed to supervisors daily via e-mail. Supervisors reviewed these reports for
anomalies and took corrective action such as performing needed maintenance on
PIVMS equipment.

We also noted that the Tampa P&DC had a high utilization (travel with load rate) for tow
vehicles. The travel with load rate is an efficiency indicator that shows the percentage
of time a PIV is operated with a load. Tampa P&DC management reviewed reports
from the PIVMS to determine that each vehicle reported travel with load. If a vehicle did
not show travel with load, management worked with maintenance to determine the
cause and correct it. The Tampa P&DC vehicle travel with load percentage for tow
vehicles for year to date July FY 2009 was 17.2 percent higher than the national
percentage.

Although the Tampa P&DC did not use the PIVMS to monitor vehicle battery usage,
they had other compensating controls in place to ensure that there were sufficient
batteries to power the vehicles. For example, the Tampa P&DC maintenance staff
controlled access to batteries by locking the battery room door and only allowing access
during specific hours for battery changes. See Illustration 1.




                                                   8
Powered Industrial Vehicle Management System                                                    NO-AR-10-001
 at the Tampa Processing and Distribution Center




        Illustration 1: Battery room locked between battery changing periods at the
        Tampa P&DC.

The Tampa P&DC did not use the PIVMS to schedule preventive maintenance or
ensure that maintenance was accomplished. Instead, the Electronic Maintenance
Activity Reporting & Scheduling System (eMARS)3 was used. The PIVMS maintenance
tool enables the user to forecast, schedule, and process preventative maintenance
events. By using this tool, management could more effectively manage preventive
maintenance of vehicles. We found that vehicles were adequately maintained at the
Tampa P&DC and will address the usage of eMARS versus PIVMS in our capping
report.

We did not observe excess vehicles at the Tampa P&DC. As of August 2009, the
Tampa P&DC had 17 PIVs, which appeared to be a sufficient number of vehicles for the
mail volume. For example, we found that from August 2008 through August 2009, all of
the 17 PIVs were used during peak mail periods.

The Tampa P&DC used the PIVMS to ensure that internal controls over safety and
security were in place. A PIVMS safety design feature requires the operator to
complete an electronic OSHA Checklist within a prescribed time after logging on to the
vehicle. We observed that equipment operators completed the OSHA Checklist at the
start of their tour. See Illustration 2.


3
  eMARS is a computerized maintenance management information system that provides field maintenance personnel
with the ability to schedule maintenance and personnel, track labor and material costs, maintain a spare parts
inventory and report on maintenance.




                                                      9
Powered Industrial Vehicle Management System                               NO-AR-10-001
 at the Tampa Processing and Distribution Center




        Illustration 2: Powered Equipment Operator completing OSHA Checklist
        at the Tampa P&DC on September 1, 2009.

During our review at the Tampa P&DC, we did not observe unsafe driving practices or
accidents or damage to the facility from powered equipment vehicles. In addition, we
found that supervisors used the PIVMS to identify employees involved in vehicle
accidents and to locate vehicles in the facility.

Management Actions

Tampa P&DC management contributed significantly to the success in realizing
efficiency improvements in tow and forklift operations. Supervisors tracked the number
of hours charged to tow and fork operations to ensure drivers made accurate clock rings
and charged their time to the correct operations. In addition, management believed that
by controlling the number or vehicles they could better control workhour usage.
Management identified excess PIV inventory at the Tampa P&DC and transferred
vehicles to the Orlando P&DC and to the Sulphur Springs Post Office.




                                                   10
Powered Industrial Vehicle Management System                                    NO-AR-10-001
 at the Tampa Processing and Distribution Center


Tampa P&DC management implemented more controls in addition to those offered by
the PIVMS. For example, not only were the PIVMS badges required to start vehicles,
but management also required Powered Equipment Operators to use a conventional
metal key.

In addition, although the PIVMS has a graphic interface that locates vehicles in the
facility and identifies the PEO operating the vehicle, Tampa P&DC management also
used a vehicle check-out board, where a picture of the employee replaces the
conventional metal key when the vehicle is assigned. By looking at the board,
management could easily identify the employee assigned to a particular vehicle. See
Illustration 3.




Illustration 3: Vehicle check-out window (left picture) and vehicle key-check
out board (right picture).




                                                   11
